<html>
<title> - ISLAMIST EXTREMISM IN CHECHNYA: A THREAT TO THE U.S. HOMELAND?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




                    ISLAMIST EXTREMISM IN CHECHNYA: 
                     A THREAT TO THE U.S. HOMELAND?

=======================================================================

                             JOINT HEARING

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                AND THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 26, 2013

                               __________

                           Serial No. 113-24

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

80-551 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
TED POE, Texas                       WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             GREGORY W. MEEKS, New York
JEFF DUNCAN, South Carolina          ALBIO SIRES, New Jersey
PAUL COOK, California                BRIAN HIGGINS, New York
GEORGE HOLDING, North Carolina       ALAN S. LOWENTHAL, California
STEVE STOCKMAN, Texas

                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           BRAD SHERMAN, California
ADAM KINZINGER, Illinois             ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   JOAQUIN CASTRO, Texas
TOM COTTON, Arkansas                 JUAN VARGAS, California
PAUL COOK, California                BRADLEY S. SCHNEIDER, Illinois
SCOTT PERRY, Pennsylvania            JOSEPH P. KENNEDY III, 
TED S. YOHO, Florida                     Massachusetts











                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Paul Goble, professor, Institute of World Politics...........     6
Craig Douglas Albert, Ph.D., assistant professor, Department of 
  Political Science, Georgia Regents University Augusta..........     9
Andranik Migranyan, Ph.D., director, Institute for Democracy and 
  Cooperation....................................................    18
Sabine Freizer, Ph.D., director, Europe Program International 
  Crisis Group...................................................    24

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Craig Douglas Albert, Ph.D.: Prepared statement..................    11
Andranik Migranyan, Ph.D.: Prepared statement....................    20
Sabine Freizer, Ph.D.: Prepared statement........................    26

                                APPENDIX

Hearing notice...................................................    42
Hearing minutes..................................................    43
Sabine Freizer, Ph.D.: Material submitted for the record.........    44
Question submitted for the record by the Honorable Paul Cook, a 
  Representative in Congress from the State of California, and 
  responses from Andranik Migranyan, Ph.D., and Sabine Freizer, 
  Ph.D...........................................................    46

 
     ISLAMIST EXTREMISM IN CHECHNYA: A THREAT TO THE U.S. HOMELAND?

                              ----------                              


                         FRIDAY, APRIL 26, 2013

                       House of Representatives,

       Subcommittee on Europe, Eurasia, and Emerging Threats and

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10:34 a.m., in 
room 2172, Rayburn House Office Building, Hon. Dana Rohrabacher 
(chairman of the Subcommittee on Europe, Eurasia, and Emerging 
Threats) presiding.
    Mr. Rohrabacher. I call to order this joint hearing of the 
Foreign Affairs Subcommittee on Europe, Eurasia, and Emerging 
Threats, as well as Subcommittee on Terrorism, 
Nonproliferation, and Trade. Today's topic is Islamic Extremism 
in Chechnya: A Threat to the U.S. Homeland? After Chairman Poe 
and I and the ranking members of two subcommittees, each of us 
will have 5 minutes to make opening statements. Each member 
then will have 1 minute to make an opening statement, 
alternating between majority and minority members. And without 
objection, all members may have 5 days to submit statements, 
questions, and extraneous material for the record. Hearing no 
objection, so ordered. The origins of the terrorist attack in 
Boston have drawn attention to a region that has not received 
the study that it deserves. The terrorist brothers had roots in 
Chechnya, even though they grew up in America, and had sought 
U.S. citizenship. Chechnya is part of the Northern Caucasus, 
which also includes Dagestan, where the father of the two 
brothers live.
    Two major wars have been fought in Chechnya in the 1990s, 
as the province sought independence from Russia. Many Chechens 
fled to other parts of the region, and into Central Asia. 
Dagestan was not directly involved in the wars, but has 
certainly been affected by them, and is now a hotbed of radical 
Islamic activity. There are reports of Chechens fighting in 
Afghanistan against the United States and NATO troops, and 
Chechen networks in Europe. Al-Qaeda has made recruitment of 
Chechens a priority, and they are thought to have been trained 
in Pakistan.
    The appearance of Chechen fighters outside the Northern 
Caucasus is ominous. The original Chechen uprising against 
Russia was secular and nationalist. Within this context, there 
would be no motive for Chechen exiles to attack the United 
States, especially after we had given them sanctuary. In the 
world view of some Chechens, there has been--obviously, some 
Chechens have had their world view radicalized, as was the case 
of the two Boston terrorists, who have turned from young people 
being raised here into a jihadist mentality of global war 
against infidels, which includes us.
    Is this happening on a regional basis, this radicalization 
that we saw with these two young men? And why is it happening? 
What outside forces have sought to transform the Northern 
Caucasus and Central Asia into a region of Muslim extremism 
which did not exist before? In particular, what impact is Saudi 
Arabia playing and other Islamic states played in sending money 
and missionaries to the region to build mosques and schools to 
impact the minds of young people who make up such a large 
portion of the population in Central Asia? Greater cooperation 
with Russia and the governments of Central Asia should be 
explored in order to properly understand and respond to this 
emerging threat. This part of the world is critical to the 
future of the human race.
    If it becomes dominated by a radical version of Islam, it 
will change the course of history in an extremely negative way. 
Muslims deserve freedom and progress, but the jihadist mind-set 
hates freedom, and will drown progress in a sea of blood. Even 
as a minority viewpoint, the radicals have done great damage 
throughout the Muslim societies, from Pakistan to Afghanistan 
through the Caucasus. And they have attacked the United States 
as well as Russia.
    Pardon me, I have a cold today, obviously. We must find 
ways to expand our long friendship with Muslims in order to 
build a better future. That future should be of peace and 
prosperity for all people, especially the people of Central 
Asia, because all of us deserve to live in such a positive 
world. We want to find positive ways of moving forward with 
these people, and thus we have gathered a panel of experts to 
give us their advice today. And now the ranking member, Mr. 
Keating.
    Mr. Keating. Thank you, Mr. Chairman. Today we are 
examining a region of the world that up until a week ago most 
people did not know a great deal about. But the Boston Marathon 
bombings in my home State changed that. I would like to take a 
moment to acknowledge the victims and their families that were 
forever changed by this senseless act, and thank those in 
Boston who worked around the clock to save lives and prevent 
other tragedies from occurring that week. For many, their view 
of the world has become much smaller as the scope of this 
investigation grows. Whether there is any connectivity, what 
happened and began in Boston and Watertown, Massachusetts, has 
now extended into the North Caucasus. And this committee has a 
responsibility to gather information about possible threats at 
home, and improve our counterterrorism cooperation with other 
nations. Although I wish that a discussion of the North 
Caucasus could have taken place under different circumstances, 
this is a discussion worth having, as it highlights why many so 
of us, particularly on this committee, have concerned ourselves 
with security, rule of law, and human rights issues abroad.
    According to the 2012 report from the International Crisis 
Group, armed conflict in the North Caucasus is the most violent 
in Europe today. Insurgents seeking a regional political unit 
founded in sharia attacked Russian officials and security 
forces whose main responsibility until recently has been a 
tough focus on eradicating the insurgency with a massive 
security presence. While this policy has had successes, some 
574 insurgents, security forces, and civilians have died 
through September 2012 in Russia, and there are almost daily 
attacks in the region, and occasionally as far afield as 
Moscow.
    It is important to understand that the description of 
terrorism within Russia and some of the contributing factors, 
as like the April 15 attack, applies back here at home as well. 
Simply put, what began as an epic struggle in a faraway land 
decades ago has fueled into an insurgency, an insurgency that 
presents a threat to our homeland. Our world is more 
interconnected than ever. And while we see great strides in 
bringing together international business groups and 
communication networks, we have yet to see at the same time the 
cooperation in international security matters and information 
sharing apparatuses.
    There is undoubtedly a delicate balance between cooperation 
with Russia on counterterrorism and concern over Russia's human 
rights abuses, but in no way should this hinder working 
together to protect the lives of innocent people. At the end of 
the day, that is all we want. As the investigation of the 
Boston Marathon incident continues, I hope that this hearing 
will be insightful as we move to strengthen our international 
information sharing and security mechanisms. I look forward to 
hearing from our panel of witnesses, and am particularly 
excited to have Dr. Freizer, the Europe director of the 
International Crisis Group, here with us, who happened to be 
visiting here. So I want to thank you all for being here, and I 
look forward to your testimony. With that, Mr. Chairman, I 
yield back.
    Mr. Rohrabacher. Thank you very much for that very 
thoughtful opening statement. And the people who were hurt and 
killed up in Boston, they are all part of our American family. 
Just like everyone who died in 9/11, we are all part of this 
American family. We grieve with you, and we are committed to 
make sure that these things don't happen to other members of 
the American family.
    Mr. Keating. Thank you, Mr. Chairman.
    Mr. Rohrabacher. And now I recognize Mr. Poe, who is 
chairman of a subcommittee of his own which focuses on such 
threats of terrorism, as well as nonproliferation and trade. 
Judge Poe?
    Mr. Poe. First, I do want to express my sympathies to the 
victims of the Boston Marathon, but also praise the first 
responders and the citizens of Boston on Patriot's Day for 
their united effort to capture these bad guys. There is still 
much that we don't know about the Tsarnaev brothers, but I am 
confident that we will get to the bottom of this as the 
investigation unfolds.
    Yesterday, we learned that the perpetrators had planned to 
travel to Times Square in New York after the Boston attack to 
unleash more mayhem and bombs. They apparently had pipe bombs 
and another pressure cooker bomb. American people want answers, 
and so do I. I do want to thank the witnesses for being here. 
It is unfortunate that no one from the Federal Government is 
here, even though they were invited to send at least one 
person. A lot of questions revolve around the older brother's 
trip to Russia. The Russians were so worried about him they 
asked us to look into him. Less than 3 months before he left 
for Russia in January 2012, the CIA successfully pushed to have 
him put on the U.S. counterterrorism watchlist called TIDE. But 
for some unknown reason, between the time he left for Russia 
and came back his name was not a concern of the U.S. 
Government, so U.S. authorities did not flag him. That meant 
U.S. Customs did not stop and question him, nor did they let 
the FBI know he was back so the FBI could talk to him. I am not 
sure, and I don't know why U.S. authorities would decide the 
older brother was not a concern while in a foreign country, 
under really suspicious circumstances, where known terrorist 
groups operate. Even the Russians were worried about this.
    It looks like we may have the same old problem of 
information sharing, or lack of it. In fact, The Washington 
Post reports this morning that a single U.S. Customs and Border 
Protection official assigned to the Boston Joint Terrorism Task 
Force received a warning that the older brother, a suspected 
militant, had returned from a lengthy trip to Russia. Officials 
said there is no indication the unidentified Customs official 
provided that information to anybody or any other members of 
the task force, including the FBI, who had previously 
interviewed the militant.
    So 10 years later after 9/11 we should not be struggling 
with this same issue of information sharing among American 
agencies, and also communication with foreign governments who 
are concerned about terrorism as well. We don't know if the 
attackers had ties directly to al-Qaeda or affiliates, but the 
evidence so far suggests a link to al-Qaeda's Inspire Magazine 
produced by al-Qaeda's group in Yemen. The magazine provides a 
step-by-step instruction for anyone wanting to build a device 
like the ones detonated in Boston. The older brother traveled 
to Russia, then went to Dagestan for 6 months between 2011 and 
2012. He might have been radicalized there. We are not yet 
certain if that is true or by whom.
    Both brothers were Chechens, and it now seems clear the 
older brother was the ringleader. Chechnya knows conflict and 
controversy. They have been dealing with it for the last 20 
years. We can be sure there is no shortage of bad guys in 
places like Dagestan just waiting to get their hands on young 
wannabe jihadists. Bin Laden encouraged Saudis to go to 
Chechnya to fight Russia. Yet another outlet for extremists is 
against the United States and coalition forces on the 
battlefields of Afghanistan. Elsewhere, if a Chechen jihadist 
cannot attack a Russian target, then a soft target in his own 
city in America or Europe is the next best option. In fact, al-
Qaeda has been encouraging those types of attacks for years, 
according to terrorism expert Bruce Riedel from the Brookings 
Institute. Al-Qaeda says Islam is under attack from every 
direction, and the jihadist answer is to strike back in New 
York, Madrid, London, Toulouse, and possibly Boston now. In 
fact, just days after the Boston attack, authorities in Canada 
arrested two men for allegedly plotting to blow up a train. 
Initial reports suggest al-Qaeda elements in Iran had provided 
the two men with direction, guidance, and information. Al-Qaeda 
and its affiliates' call to global jihad is alive and well and 
lives in jihadist forums, social media outlets, and the like.
    So we have many questions that we need answers from. The 
threat from terrorist attacks around the world did not die with 
bin Laden. We must be realistic and understand that, and find 
out specifically what is taking place in Chechnya, and how that 
affects the United States. And I yield back, Mr. Chairman.
    Mr. Rohrabacher. Thank you very much for that very 
thoughtful and forceful opening statement. Does anyone else 
have a desire for an opening statement? If not, let me note 
that we did try to get a State Department representative here 
with us today. We wanted them to send a witness to tell us what 
they thought was going on in Central Asia, and Chechnya, and 
the Caucasus region. But they declined. And they are too busy 
to send someone here to the United States Congress and to speak 
with the American people through public hearings like this. 
They are just too busy on other matters.
    That may well be part of the problem in that this region 
has not gotten the attention that it deserves. There is a map 
of the region over there. But let us just note that Central 
Asia, as we are describing, and the Caucasus, represent a huge 
chunk of the planet. And if that area comes under the 
domination of radical Islam that makes it its job to attack the 
United States, or to attack other countries, not just the 
United States, but other non-Muslim people, that will be a 
disaster for every person on this planet. That will usher us 
into an era of violence and mayhem that will be hard to get out 
of.
    So we need to pay attention to the Caucasus, and we need to 
work with those people who will work with us to see that that 
does not happen. And I don't believe that we have, number one, 
paid attention here until it stung us, as it did in Boston, and 
as it did on 9/11. And we also have not been cooperating and 
working as hard as we can with those other countries, and I 
would put my finger on Russia, where we could have well worked 
a lot closer with Russia than we have been. And as the judge 
pointed out, and as the ranking member pointed out, we can do 
so without giving up our commitment to human rights, and not 
complain if the Russians are doing something wrong. They can 
accept some criticism, as we can when we do things that are 
wrong. But that should not prevent us from joining forces 
against radical Islam, which threatens to kill our children in 
order to terrorize the world.
    If they take over and dominate an area the size of Central 
Asia, everybody in the world is in for trouble. With that said, 
we have got some very fine witnesses. Paul Goble is a professor 
at the Institute of World Politics. He was director of research 
and publications at the Azerbaijan Diplomatic Academy. Earlier, 
he served as vice dean of the social sciences and humanities at 
Audentes University in Estonia, and a senior research associate 
at the EuroCollege at the University of Tartu, which is also in 
Estonia.
    He served in various capacities in the United States State 
Department, the Central Intelligence Agency, the Voice of 
America, and Radio Free Europe and Radio Liberty, and at the 
Carnegie Endowment for Peace.
    Next we have Andranik Migranyan. I hope I pronounced that 
correctly. And let me just note that I took this upon myself to 
reach out to the Russian Embassy and to our Russian 
counterparts and see if they could maybe recommend someone who 
could come here and discuss this very important issue and how 
it is important to both of us. We appreciate you being with us 
today. And I am sorry that the Russian Embassy can send people 
but the State Department can't.
    He is a director of the New York City branch of the 
Institute for Democracy and Cooperation. He was a member of the 
Presidential Council of the Russian Federation between 1993 and 
2000, vice president of the Reforma Foundation. And among his 
many publications are the books Russia: From Chaos to Order, a 
Russian Search for Identity; and Democracy and Morality. He was 
awarded with the Russian Medal of Honor by a presidential 
decree in 2009.
    We also have with us Dr. Craig Douglas Albert. He is a 
professor of political science at Georgia Regents University in 
Augusta, where he specializes in the study of ethnic group 
identity. His research has concentrated on the Chechens and the 
Kurds--that is very interesting--and recently working on papers 
entitled Things Fall Apart: A Political Opportunity Model for 
the Chechen Resistance. He holds an MA and a Ph.D. from the 
University of Connecticut.
    And finally we have Dr. Sabine Freizer--is it Freizer or 
Freizer?
    Ms. Freizer. Freizer.
    Mr. Rohrabacher. Freizer. Who joined the International 
Crisis Group in 2004. She currently serves as the Istanbul-
based director of the European Program. In this role, Sabine 
oversees projects covering the Caucasus, both North and South, 
Bosnia, Kosovo, Serbia, Turkey, and Cyprus. Before joining the 
Crisis Group, she served as political officer in the OSCE 
Election Observation Missions in Azerbaijan and Georgia from 
2003 to 2004. She has a Ph.D. from the London School of 
Economics and a master's from the College of Europe in Belgium, 
which she obtained as a Fulbright scholar.
    So we welcome our witnesses today, and we would ask if you 
could try to keep your testimony to 5 minutes. And anything can 
be submitted for the record. But then we will come back and ask 
questions once everyone has testified. If there is a vote, it 
is the intention of this chair to recess, if we have not had 
our time to ask the questions, and then come back immediately 
after the last vote. And I understand there is only going to be 
two or three votes, so it should not be more than 20 minutes or 
\1/2\ hour. So we will start with Mr. Goble.

  STATEMENT OF MR. PAUL GOBLE, PROFESSOR, INSTITUTE OF WORLD 
                            POLITICS

    Mr. Goble. Thank you, Mr. Chairman. Thank you for inviting 
me, and thank you for holding a hearing on such an important 
topic. Allow me to begin by associating myself with what you 
and other members of the committee have said about our common 
horror at what happened in Boston and about the enormous 
respect we have for the people of Boston and the way they 
responded. It was quite impressive. I must say that I also want 
to associate myself with the chairman's remarks about the 
Department of State's representation. As late as the summer of 
1989, I was the only person employed in the U.S. Government 
working on the non-Russian peoples of the Soviet Union. That 
was quite amazing given everything that was happening. And it 
was certainly my hope that after the Soviet Union came apart, 
the number of people who would be working in those areas and 
have expertise on it would grow, and we would all benefit from 
it.
    It is probably inevitable whenever something that we know 
little about, a place or a people, comes into our 
consciousness, that we jump rather quickly to 
oversimplifications based on our knowledge from elsewhere. That 
is certainly what has happened in the response to the horror in 
Boston. We have had people use terminology which has been 
imported without much thought about what it means. And I think 
it is terribly important to unpack some of this oversimplistic 
language and to understand what is really going on lest we be 
in a position to fight it, and also even more, and more 
immediately anyway, lest we be manipulated in a way that is 
against American national interests.
    In my remarks I would like to focus on three elements of 
this oversimplification. The first has to do with Islam, the 
second has to do with ethnicity, specifically, in the North 
Caucasus, and third has the do with the experience of 
emigration among peoples of the North Caucasus, not only in 
this country, but in western Europe.
    Islam in the North Caucasus is among the most varied 
phenomenon in the world. It came in three different ways 
beginning in the 8th century in Dagestan, and not until the 
18th century in Chechnya. Dagestan is a vastly more Islamic 
place. I am much more worried about the 6 months in Dagestan 
than I am the Chechen background. It is also very differently 
in how tightly it is held by people there, and how much it 
motivates actions. Many of the people who are called Muslims, 
or call themselves Muslims in this part of the world know 
nothing about their faith. They are what the Soviet calls 
ethnic Muslims. They know they are Muslims, they don't know 
what it means.
    President Dzhokhar Dudayev of Chechnya once told me that he 
was a good Muslim, he prayed three times a day. As a good 
Muslim would know that you pray five times a day, but he had 
been a member of the Communist Party since the age of 18, and 
major general in the Soviet Air Force, so he did not know. 
Unfortunately, we use the term Muslim without always an 
appreciation of the fact that what happened has happened in the 
North Caucasus, and even more in Central Asia, since 1991 
reflects the experiences of a community that had an identity 
but had no content for that identity. And suddenly there were 
people available to provide that content. Prior to 1991, very 
few of these people could have told you the difference between 
one sura of the Koran or another. The Koran was published only 
twice in Soviet times for people there. So they didn't know 
very much.
    I believe that the opening of the southern border of what 
had been the USSR may prove ultimately more fateful for the 
United States than the opening of the western border to Europe. 
First, and I want to give you four statistics, pairs of 
statistics. In 1991 in the Russian Federation there were 150 
mosques. Today there are 8,800. In 1991, there were 40 people 
who went on the hajj, people who traveled to Mecca. This past 
year, there were 40,000, a factor of 1,000 increase. The number 
of missionaries coming in from the Middle East, Turkey, and 
Saudi, and the Turks are quite heavily involved, went from zero 
in 1991 to a high of about 2,500 in the late 1990s, and it is 
now somewhere between 1,200 and 1,500. And the number of 
Muslims studying abroad in madrasas and Islamic universities 
went from four in 1991, at least three of whom were working for 
the KGB, and now to a figure of probably about 1,200, again, 
down from the numbers of 2,000-plus at the end of the 1990s.
    Those numbers are even more dramatic in Central Asia. I 
hope we can come back to that, but I think that is important. 
Second, with respect to ethnicity. Ethnicity was constructed. 
These people have various experiences with what it means. Most 
of the Chechens were, in fact, committed ethno-nationalists. 
The idea that they are Islamist nationalists is simply untrue. 
There are some who are, but overwhelmingly, it is not the case. 
If you look at Central Asia, you will see that that is also 
true. And the experience of emigration means that people are in 
extremis because they are up against very difficult situations. 
And one thing that has not been focused on in the discussion of 
Boston is that many Chechens feel they are about to be returned 
to the Russian Federation or to Chechnya because of what has 
been happening, thanks to Russian pressure in Austria, Germany, 
Belgium, and elsewhere in Western Europe. People who fear they 
have no good options may do really bad things.
    Three quick conclusions: First, I think we are learning 
that if we are going to compete in this kind of ideological 
contest, and it is an ideological contest, police power must be 
used, but it will never be sufficient to solve the problem. 
Second, we need to recognize that many of the problems we face 
now, both with regard to Islam in North Caucasus and Central 
Asia, and with regard no ethnicity in North Caucasus and in 
Central Asia, are a reflection of the actions of Moscow both 
before 1991 and after that time. We have to cooperate with the 
Russians in certain respects, but we have to recognize that 
they are part of the problem, too. And that has to be insisted 
upon.
    And third, we need to understand that some of the things 
that are coming out in the coverage of the two terrorists shows 
that there are some optimistic reasons for looking at Islam, 
that more and more Muslims are learning the details of their 
faith. Forty years ago, when I started studying it, you 
couldn't get a translation of the Koran in English that didn't 
say an interpretation. Now there are discussions of what is 
canonical, what translations are canonical. We know what 
happened when the Bible was translated into German and English 
in the 15th century. It led to the Reformation, the 
Renaissance, and modernity. It is entirely possible that we 
will see the same kind of thing happen in the world of Islam, 
and we will see the same kind of troubles over the next three 
or four generations that the people of Western Europe 
understood. Thank you very much.
    Mr. Rohrabacher. That last point you made is very 
interesting. I never thought of that before. And thank you.
    [Mr. Goble did not submit a prepared statement.]
    Mr. Rohrabacher. Dr. Albert.

STATEMENT OF CRAIG DOUGLAS ALBERT, PH.D., ASSISTANT PROFESSOR, 
  DEPARTMENT OF POLITICAL SCIENCE, GEORGIA REGENTS UNIVERSITY 
                            AUGUSTA

    Mr. Albert. Thank you, Mr. Chairman, members of the 
committee, fellow panelists, for having me here today. I 
appreciate the opportunity to speak about Islamic extremism in 
Chechnya. I would also like to remark my comments are directed 
mostly at the Islamic extremists inside Chechnya and Dagestan, 
and don't reflect the general population of Chechnya as well, 
that is more an ethno-nationalist approach, as Professor Goble 
said. So this pertains directly to the Islamist threat inside 
the area. There are some Islamist elements inside Chechnya and 
the surrounding Caucasus regions, although their connection to 
any larger global jihadist network is a question for debate. It 
is this author's opinion that although there is an Islamist 
presence in the Chechen region, it possesses little strategic 
threat to the United States, although it may pose a modest 
threat to the United States' forces worldwide.
    The largest contemporary Islamist threat in Chechnya and 
Dagestan is the Caucasus Emirate founded in 2007. The CE is 
currently led by Doku Umarov, and was officially created to 
replace the failing separatist government of the region, the 
Chechen Republic of Ichkeria. While the former wanted an 
independent Chechnya, the CE wants to create an Islamic 
caliphate that extends beyond the Caucasus region. In fact, it 
appears the CE has embarked upon a philosophically grand vision 
of territorial expansion in the past couple of years. The CE 
has some reported connections to al-Qaeda, including third-
party financing, mainly based in Saudi Arabia. Although there 
are arguments whether there are larger connections between the 
CE and al-Qaeda, there appears to be evidence that the two are 
connected, if only in a minor way. It is well documented that 
al-Qaeda is currently more of a leaderless organization, and 
thus has resulted to organizing and coordinating its efforts 
and networks via the Internet, which is probably the 
relationship it has with Chechen jihadists.
    Therefore, it is more difficult to establish a clear 
connection between the two, but there is a connection, however 
small it may be. Although there are some historical links with 
Chechnya and al-Qaeda, there is no convincing evidence that 
Doku Umarov is a member of al-Qaeda, but he certainly 
sympathizes with its larger causes. This can perhaps be 
demonstrated by the Caucasus Emirate Web sites that post links 
to al-Qaeda documents and al-Qaeda affiliates, including links 
to the al-Qaeda magazine Inspire, which may have helped the 
Boston bombers develop and deploy their bombs.
    It must also be mentioned that the tactics and bombs used 
in Boston resemble the attacks carried out in Chechnya, 
including delayed multiple explosions, although the bombs are 
made slightly differently. The greater jihadist threat in the 
Caucasus Mountains is not a nationalistic Chechen movement, and 
doesn't involve most of the Chechens--probably less than 1 
percent of the population at all sympathize with this type of 
movement--but it is a larger network of jihadists connected and 
networked to the global jihad. It is also more of a Caucasian 
threat than a Chechen threat, emanating mostly from individuals 
of Dagestan.
    It is important to emphasize that an attack on the United 
States' mainland from the Caucasus Emirate or other Chechen/
Caucasian groups is highly unlikely. The Chechens are generally 
not preoccupied with the United States. However, one has to 
consider if the Chechens do become more involved with the 
larger global jihadi network, whether they may consider 
attacking the U.S. homeland. With that considered, one would 
still conclude that an attack in the U.S. is highly unlikely by 
these individuals. In fact, CE commanders have recently stated 
that the larger confederated network had nothing to do with the 
planning, coordinating, or financing of the attacks in Boston. 
Doku Umarov has also recently ordered his units and all 
jihadist elements inside the Caucasus not to attack civilians 
at all, anywhere. And he has emphasized that his organization 
has no conflict with the United States.
    The CE and nationalist groups inside Chechnya direct most 
of their concerns toward combating the Russian Federation. 
Especially with the 2014 Winter Olympics approaching, it can be 
hypothesized that their efforts are being solely directed at 
targeting those sporting events or planning other attacks 
inside and around Russia, especially inside Dagestan. It is 
likely, however, that U.S. military, security, and perhaps 
government forces that are combating jihadist elements 
worldwide will face a continued threat from individuals from 
the Chechen area. The U.S. has already faced these foes from 
the Caucasus in both Iraq and Afghanistan, and we can also 
safely predict that where there is a jihadist foothold or where 
there is a chance of gaining ground for Islamist forces, some 
Chechens will be found there, as is recently reported in the 
Syrian civil war.
    Unless some more details are made available about the 
Boston bombers' possible training in the Caucasus, however, and 
Dagestan, I think it is highly unlikely that there is any 
reasonable strategic threat planned against the United States 
by the Chechens. Thank you very much.
    Mr. Rohrabacher. Thank you very much. We will have some 
questions for you later.
    [The prepared statement of Mr. Albert follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Rohrabacher. And sir, and again, Mr. Migranyan.

STATEMENT OF ANDRANIK MIGRANYAN, PH.D., DIRECTOR, INSTITUTE FOR 
                   DEMOCRACY AND COOPERATION

    Mr. Migranyan. Thank you, Mr. Chairman.
    Mr. Rohrabacher. But you have to punch your button there. 
Thank you for joining us today. And we really appreciate 
hearing from a point of view that we wouldn't hear otherwise. 
And I think we should. So you may proceed.
    Mr. Migranyan. Thank you, Mr. Chairman. It is a privilege 
for me to be here and to share some views concerning Russia's 
perception concerning all these events which happened in 
Boston. First of all, I would like to emphasize that these 
attacks in Boston have provoked feelings of solidarity with the 
American people, and especially with the citizens of Boston 
among the Russian people and the Russian leadership. And this 
is the second time when President Putin, after 9/11, expressed 
his readiness immediately to cooperate with American 
authorities in order to find out what happened and how we can 
eradicate the reasons and causes which brought these tragedies. 
But what is in Russia, you know, in Russia there was, of 
course, a kind of, you know, uneasiness during these previous 
two decades when Russia was fighting against Chechen 
terrorists, and Russia didn't get enough understanding, 
empathy, and support from its western partners. And this is 
something which really is in the public opinion, and in the 
mood of politicians. And by the way, yesterday Putin, in his 
direct line with the people, for 5 hours he was talking to the 
people, he talked a lot about this event in Boston and 
terrorism.
    And he said that Russia was the victim of international 
terrorism in Russia from Middle Eastern countries, from other 
places, Muslim radicals and terrorists were coming and 
supporting Chechen terrorists, and unfortunately, our western 
partners were very, you know, reserved in order to express 
their support.
    And this is, I think, one of the reasons is that even now 
when you look at the coverage of the events in Boston, a lot of 
people are talking about Stalin's deportations, about 
psychological problems concerning these people who grew up, and 
about these injustices which Russian authorities executed 
against the people indirectly trying to justify some motives. 
But you know, I think America now is faced with this home-grown 
terrorism, I think it is becoming more and more aware that 
without--you know, no motives can justify the terrorism and 
mass killings of innocent civilians independently, because no 
retaliation can be justified if some governments are acting in 
some places like the Tsarnaev brothers were talking about 
America's war in Iraq or Afghanistan, and maybe that is the 
reason why they acted this way.
    And another important problem is that, of course, Russia 
wanted to get back and have extradited some leaders of Chechen 
terrorists from the UK and from the United States. For example, 
Akhmed Zakayev was in United Kingdom, and now still is there. 
He is self-proclaimed prime minister of Chechen Republic of 
Ichkeria. Or Ilyas Akhmadov, by the way, who is the former 
Minister of Foreign Affairs of Chechen Republic of Ichkeria, by 
the way he got asylum in Boston when he left Russia. And 
unfortunately, neither American nor British sides, you know, 
cooperated with Russia in order to extradite those terrorists 
who are considered in Russia as terrorists. But the problem is 
that, I would like to say, that Chechen terrorists cross the 
border of Russia, and now we have information in the Russian 
Secret Services and Russian media that Chechens are fighting in 
Afghanistan, and they are fighting against Americans. They are 
fighting against NATO.
    You mentioned that they are members of some groups in 
Europe. They are now fighting in Syria. And American 
politicians and the American media are supportive of some 
groups of these rebels who are fighting against a legitimate 
government in that country, which means that we heard that some 
fighters over there, they are putting the signs that we are 
fighting today here, and if we win, then we are going to fight 
in Russia, returning back to Russia. But summing up what I 
said, in Russia, the general mood is that we have to understand 
that we Russians have a common interest and overlapping 
interests with the United States. And we have disagreements, 
and after Guantanamo and Abu Ghraib not everyone in Russia 
believes that the American Secret Services consist of knights 
on white horses. But our imperfections should not prevent us 
from realizing that we are facing a common enemy, and to 
cooperate against it is both common sense and inherently moral.
    Mr. Rohrabacher. Thank you very much for that testimony.
    [The prepared statement of Mr. Migranyan follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Rohrabacher. And we recognize the frustration of 
someone who sees acts of terrorism being committed against his 
own people that are very clear, and not the outrage and 
attitude here that we would expect, that he would expect from a 
decent people such as the people of the United States. We will 
go into that in the question and answer section. Mr. Royce? We 
are very pleased to have the chairman of the full committee, Ed 
Royce. Ed, would you like to make a statement?
    Mr. Royce. You know, I appreciate that opportunity, Mr. 
Chairman, but I think I will defer and allow the witnesses each 
to testify. And then if I might, I might ask a question. Thank 
you, Mr. Chairman.
    Mr. Rohrabacher. We will put you up front. And finally, Dr. 
Freizer.

 STATEMENT OF SABINE FREIZER, PH.D., DIRECTOR, EUROPE PROGRAM 
                   INTERNATIONAL CRISIS GROUP

    Ms. Freizer. Thank you very much, Mr. Chairman, and ranking 
members, for the opportunity to present today. I want to 
commend the subcommittee for focusing their attention on the 
North Caucasus during such a critical time. A few words about 
Crisis Group. Crisis Group is an independent, nonpartisan, 
nongovernmental organization that provides field-based 
analysis, policy advice, and recommendations to governments, 
the United Nations, the European Union, and other multilateral 
organizations on the prevention and resolution of deadly 
conflict. Ambassador Thomas Pickering is our current chairman, 
and Louise Arbour, former chief prosecutor at the International 
Criminal Tribunal for Rwanda and the former Yugoslavia, and 
also the former U.N. High Commissioner for Human Rights is our 
current president.
    Crisis Group began a North Caucasus project in 2012, and 
has written two background reports that were published in 
October. The first report is called ``The North Caucasus: The 
Challenges of Integration, Ethnicity and Conflict.'' And the 
second report is called ``The North Caucasus: The Challenges of 
Integration, Islam, the Insurgency, and Counterinsurgency.'' I 
would respectfully ask that these reports be incorporated into 
the committee record.
    Mr. Rohrabacher. Without objection.i
    Ms. Freizer. Thank you. A third report, which will come out 
early this summer, will look at the institutional causes of 
conflict in the North Caucasus. And that report will also have 
a series of recommendations on how to deal with the violence in 
the North Caucasus. I should say that our staff travels 
frequently to the North Caucasus, throughout the region, 
talking to a very large of different interlocutors. I 
understand that these hearings take place in the aftermath of 
the Boston bombings, and I would like to also express the 
condolences of International Crisis Group, of all our staff 
working around the world, for these events.
    There are two primary causes for conflict in the North 
Caucasus. It is ethnic conflict and the Islamic insurgency. Let 
me discuss a little bit by talking about the ethnic conflict. 
During the early 1990s, separatists sought full independence 
for Chechnya, but the failure of their state-building project 
and their expanded use of armed force, including of terrorism, 
brought a massive, and at times, indiscriminate Russian 
response during two wars in Chechnya. Since 2003, the situation 
in Chechnya has largely stabilized, with a process of 
Chechenisation by the Russian Government, which means handing 
over most economic and political power to local Chechen 
authorities. But having said that, several interethnic 
conflicts continue to exist in the region. Sometimes these do 
lead to violence. Very often they are about land and they are 
about control of power, local power and economic resources. But 
we also see some conflicts between some of the republics, for 
example, between Chechnya and Ingushetia, between Ingushetia 
and North Ossetia. So you still see tensions at the local level 
which are primarily ethnic-based.
    The other main source of conflict, which is the one that I 
think is the main issue of today, is the insurgency. Now, what 
we should say is that the insurgency feeds off the ethnic 
conflicts. So a lot of young people who in the past 20 years 
ago might have joined ethnic movements or nationalist movements 
now choose instead to join the insurgency. The main 
organization that is mobilizing the insurgency is the Caucasus 
Emirates, the Imarat Kavkaz, which was proclaimed in 2007 as a 
final step of the transformation of the Chechen separatist 
movement into a regional-wide Islamist project. It is 
recognized as a terrorist organization by Russia and by the 
United States and by many others. It operates across the North 
Caucasus, attracting youth of all different types of 
ethnicities. Predominantly, it attacks Federal forces and local 
police, but also civil servants and religious leaders. It has a 
unified force, a unified cause, a very strong structure with a 
leadership. Predominantly it is local. Predominantly it is 
local funded. And it has predominantly local aspirations.
    Today, rarely a day goes by without an attack in Russia. 
Some 750 people were killed in 2011, and almost the same number 
were killed in 2012. So far this year, just in the Republic of 
Dagestan, 67 people were killed. We will all remember, of 
course, the bombing of the Domodedovo Airport in Moscow in 
January 2011 that killed 37. The vast majority of attacks are 
against security services, local officials, and traditional 
clergy. In February 2012, the head of the Caucasus Emirates 
said that he will no longer be targeting civilians. However, of 
course, in attacks against officials and security services, 
there are important civilian casualties.
    The government's main response until now has been a very 
tough focus on eradicating the insurgency with a massive 
security presence. For example, just a few days ago, between 
the 11th and 21st of April, there was a major security 
operation in Dagestan in the village of Guimudih, which 
resulted in the displacement of 5,000 people. But the Russian 
Government has also began to open some room, and started 
applying a longer term comprehensive approach to 
counterterrorism. And I believe that it is this approach that 
should be supported.
    Finally, the North Caucasus integration into the rest of 
Russia is essential for security and for healthy ethnic 
relations in the country. The spread of violence from Chechnya 
to neighboring republics, high losses among civilians, 
military, and the insurgents, and deteriorating ethnic 
relations countrywide indicate more effective and comprehensive 
approaches are needed to deal with these very complex root 
causes of the conflict. Thank you very much.
    Mr. Rohrabacher. Thank you.
    [The prepared statement of Ms. Freizer follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Rohrabacher. And we appreciate all of our witnesses 
today. And I am going to recognize now the chairman of the full 
committee for a statement or questions, whichever he chooses, 
and what time he would like to consume.
    Mr. Royce. Thank you, Mr. Chairman. I appreciate that. One 
of the observations I would make is that in my conversations 
with Duma members from southern Russia, two physicians that I 
can think of, both Muslims from Dagestan, they shared with me 
the way in which this Chechen al-Qaeda-linked organization was 
going house to house in their state, which neighbors Chechnya, 
and giving young men an option of either joining the movement, 
the jihad, as they called it, or killing them.
    And as they related to me, this was much more than just a 
movement for Chechen independence, indeed it was much more 
ambitious, because the idea was a caliphate for the whole 
region, right? A caliphate--well, you see Chechens are now 
fighting in Afghanistan; you see them carrying out 
assassinations in Pakistan, certainly all over Central Asia.
    And in terms of the violence in all of this, the al-Qaeda-
linked groups have developed really a methodology with the use 
of suicide bombings that they have carried to quite an extent. 
You have talked about the attack on the school, where you have 
over 500 casualties or dead, most of them children. But this is 
a fairly regular occurrence in southern Russia today. Even in 
Moscow, when these Chechen al-Qaeda-linked fighters get into 
the city, it is pretty horrific what they do on the subways or 
in government buildings, the number of people killed.
    The question going forward is with this commitment now to a 
wider caliphate, and given that it encompasses such a large 
geographical area, the attempt to convert moderate Muslims I 
think is a major challenge. I talked to a village leader who 
was Kyrgyz, and he told me about the situation in his village, 
where 12 young men were receiving instruction in jihad, they 
had agreed to go to a madrasa to get an education, but all 12 
were decapitated. And he said this is not a local Kyrgyz custom 
in Kyrgyzstan. This is the importation or the change of a 
culture.
    And gradually we are changing our culture to this al-Qaeda, 
you know, psychology, and that it is a Gulf state culture, in 
his mind. That is what he said. It is a Gulf state culture in 
terms of decapitation. But with that and with the kinds of mass 
killings that we are doing, we are changing culture.
    I was going to ask you about that, because it is really a 
struggle within these societies. And the two physicians that I 
knew serving in the Duma felt they were losing that struggle. 
Just your insights.
    Mr. Migranyan. You know, thank you for raising this 
question. I would like to say that Dr. Goble was absolutely 
right. The situation is now much worse in Dagestan rather than 
in Chechnya. The problem is that Dagestan is multiethnic. There 
is serious strained relationships between different ethnics 
groups. It is more prone to Wahhabism. And Wahhabism is coming 
from Saudi Arabia. And the money is coming, the people are 
coming from there. And the power is very weak. And this is the 
problem which you, I think, can understand. You have a strong 
man in Chechnya, Akhmad Kadyrov, and no terrorist acts, or at 
least almost no terrorist acts. And you have weak institutions 
with power in Dagestan, and you have a lot of them every day 
practically, and a lot of losses. Which means this is the 
problem of security and democracy.
    Mr. Royce. I think it might be a little more complicated 
than that. Because we are looking at terrorist attacks not just 
in these two states, but in many states across southern Russia, 
and in Moscow as well. And with all the security in Moscow, 
they are not able to protect the subways, they are not able to 
protect--you had an observation.
    Mr. Goble. I just want to say that what we are seeing----
    Mr. Royce. Push your button.
    Mr. Goble. Excuse me. What we are seeing is an effort to 
recruit people who identify themselves as Muslims. But the 
effort to recruit people who are committed Muslims, that is 
people who really know about Islam, has failed, even in 
Dagestan. That where the Saudi missionaries have been most 
successful is in areas where people don't know very much about 
Islam. They identify as Islam, but someone else is telling them 
what it means. This is a huge problem, because if you see 
people acquire more Islamic knowledge--there is a view here in 
this country that as people learn more about a religion, they 
will tend to become more fundamentalist. The fact is as people 
learn more about a religion, they become more committed to 
whatever the religion teaches, and they become protected 
against efforts to change their direction.
    In the case of the people of the North Caucasus and Central 
Asia, and the something between 15 and 18 million Muslim 
population elsewhere in the Russian Federation, what we have 
are people who do not have that kind of training, and therefore 
are more susceptible for recruitment. I think it is very 
important to understand that, that there is a process of 
immunization. I know many, many Muslims in Tatarstan in the 
Middle Volga. Those who know a very great deal about Islam are 
able to say absolutely no to the missionaries coming from Saudi 
Arabia. The people who know much less about Islam are far more 
likely to be recruited because they are waiting for someone to 
tell them what it means.
    Mr. Royce. Thank you, Mr. Goble. Thank you, Mr. Chairman.
    Mr. Rohrabacher. Yes. And we now recognize Mr. Brad 
Sherman, ranking member on the Terrorism Subcommittee, for his 
opening statement.
    Mr. Sherman. Thank you, Mr. Chairman.
    Those who have seen me on this committee have seen me use 
my question time to pontificate. When I am just filled with so 
many questions, I am going to lay some out now using my 
pontification time to lay out some questions, and I will invite 
the panel to respond later.
    One relates to the history of the area where we are told 
that Stalin deported the entire Chechen population, but this 
raises the question how many people were deported, how many 
returned, and who in the heck was living in Chechnya in the 
meantime, and how were they persuaded to leave?
    We see an over 200-year alliance between the bin Saud 
family and Wahhabi Islam. And I think it may go beyond this 
hearing, I mean, but this is both an alliance and very 
dangerous to the Saudi royal family since most of those who 
want to kill the leaders of Saudi Arabia are motivated by an 
Islam that seems also indistinguishable, to me, to the Islam 
that is being funded by and propagated by money that comes from 
the gulf and either with the permission of or out of the 
pockets of the Saudi royal family.
    I am going to be asking what are the training facilities in 
Chechnya and Dagestan? We all knew that al-Qaeda was operating 
in Afghanistan, taking in people from all over the world, 
training thousands of them. Is there anything even on a smaller 
scale in Chechnya, Dagestan? We saw these brothers be, 
unfortunately, effective in the bombing and incredibly 
amateurish after the bombing, and so it would be interesting so 
see whether they got any training beyond what they saw on the 
Internet for the bombing. And we won't know that in these 
hearings, but perhaps we will know whether there is a mini al-
Qaeda, which means the base--is there a training base for 
extremist Islam in the Chechen region.
    I am--I think I will save the rest of my questions for 
question time and yield back.
    Mr. Rohrabacher. Thank you very much.
    And we will now proceed to our questions and dialogue. Let 
me begin by saying that years ago--and just to relay the story, 
years ago, I think it was in 2004, the Chechen terrorists took 
over a school--is it Beslan, is that how you pronounce it--in 
Russia, Chechnya--is that city part of Chechnya, or is it just 
part of Russia? It is a Russian city, a Russia school. And the 
terrorists there murdered--in the end 180 children lost their 
lives, children.
    And I remember calling the White House personally, and I 
talked directly to Condoleezza Rice and told her, now is the 
time that we can establish a close, and new, and positive 
relationship with Russia and recruit them to work with us in 
areas of mutual interest that we couldn't do before; now is the 
time for us to stand with these folks. And I said, send 
President Bush over there to stand next to Putin and say that 
Americans stand shoulder to shoulder with the people of Russia 
and, yes, the Government of Russia in opposing and defeating 
those who had murdered children in order to obtain their 
political ends. As we have seen in Boston, the young man who 
put the bomb down did so right behind an 8-year-old boy.
    Now, the answer was evident that, no, the President didn't 
go there. Let us also note that how many people here know that 
the Russians have built a monument in memory of the people who 
were killed, the Americans killed in 9/11--how many know that 
right across from where the World Trade Center was looking 
across the bay there is beautiful monument that was built by 
the Russian people and the Russian Government expressing 
solidarity, and the sorrow and heartache of seeing their 
people, ordinary people, Americans and citizens, old people and 
young people losing their lives like this to a terrorist 
attack?
    Well, today I would hope that what happened in Boston and 
the fact that it related directly back to Russia and Chechnya 
in terms of there is a line we can draw, that I hope that that 
will motivate us to work with Russia in order to defeat those 
who would murder children in order to obtain their goals.
    Now, the Chechen independence movement was originally 
secular and nationalist. What I am talking about is I do not 
understand how radical Islam talking about God and Allah, as 
they say, that they seem to be the ones who justify acts and 
make legitimate acts of murdering innocent people who are 
noncombatants and targeting noncombatants; not targeting the 
army of someone, but targeting noncombatants. That is being 
done to terrorize us into submitting to some of their radical 
religious thought, I guess. But in the beginning the Chechen 
independence movement was secular and nationalist. Now it 
appears that radical Islamists' ideology is pretty much 
dominating that independence movement.
    These are people who now this radical Islamic ideology 
makes a common jihad against Christians, Jews and Hindus 
throughout the world. Where did that come from? How did that 
happen? I am asking the panel. And was this--the financing of 
Wahhabi extremism and financing of these mosques, did that have 
something to do with this? And what kind of threat in the 
future?
    And also let me note they didn't permit in Uzbekistan the 
Saudis to come in and build their mosques. They were criticized 
here as that is a violation of their human rights. But we know 
that the Saudi purpose of doing this was to develop a brand of 
Islam that will target and kill children.
    So, number one, how did it become this radical ideology, 
and is there a way to counter that? And is Uzbekistan wrong, 
and are we right to condemn Uzbekistan for not allowing them to 
build their mosques?
    Mr. Goble is really anxious here. Go right ahead.
    Mr. Goble. As someone who was quite involved with Dzhokhar 
Dudayev, who, after all, prevented the killing of Boris Yeltsin 
in January 1991 and also prevented the killing--extension 
killings from Vilnius and Riga to go to Tallinn at that time, I 
can testify that the Chechen national movement was completely 
secular.
    The process by which you saw a change is not that the 
entire movement changed, but the part that got attention 
changed. It was a product of, I believe, three different 
factors. The first was that the Chechen national movement, as 
articulated by Dzhokhar Dudayev, believed that Chechens as a 
nation had a right to independence, the same way the Estonians 
or the Latvians or anyone else. That was his personal belief. 
When the Chechens did not get any support for their position in 
the West, they began looking for support elsewhere. 
Disappointed in our not having supported us, they turned to 
look at the people--the only people who were prepared to say 
they were supporting them.
    Second, I mentioned some numbers about the people, the 
number of people going on the haj. This is a good indication of 
how intense you have. Over the last 22 years, Chechens have 
formed roughly 40 percent of hajis coming from the Russian 
Federation, even though the Chechens form less than 1 percent 
of population of the Russian Federation. So you have a lot of 
people being exposed.
    And third thing is there has been money, real money, coming 
in from the Saudis, and not just the Saudis, a number of other 
people, too, to build various kinds of things.
    I would argue that there is still a Chechen national 
movement which is committed to a secular and free Chechnya. 
Unfortunately, it gets very little attention, and it gets very 
little attention in Chechnya because it has been so 
unsuccessful. When people are unsuccessful, when the people 
they hope will be their allies don't turn out to be, it is not 
surprising that they turn to other people who were willing to 
support them. And, unfortunately, some of the people they turn 
to in this instance have, as you have quite properly pointed 
out, truly criminal and immoral agendas.
    Mr. Rohrabacher. Let me just note, and then I will go to 
the ranking member, just say I can't imagine if a number of 
Western countries where people would be so committed to their 
national independence, and they were so frustrated that they 
weren't getting outside support, that they would go to ally 
themselves with those who want them and help them murder large 
numbers of children. I don't--you know, this is not an excuse. 
Them not getting supports from the United States or from people 
who believe in democracy is no excuse to help people who are 
willing to murder--to target children.
    Mr. Goble. Mr. Chairman, I was not seeking to find an 
excuse. I am just trying to provide and explanation, an answer, 
because it is absolutely true. What was tragic is that those 
people who recognized what was going on were almost entirely 
ignored, and that there was a lot that could have been done and 
should have been done and wasn't done.
    Mr. Rohrabacher. All right.
    Mr. Goble. I certainly do not believe that we are--we bear 
responsibility, either then or now, for what happened.
    Mr. Rohrabacher. Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    Dr. Migranyan, given your familiarity actually with the 
Russian Government, I have a question. The FBI investigating 
the Boston Marathon bombing received information from Russia, 
but then they sought additional information after their 
investigation. Can you speak or shed some light on maybe the 
culture that exists with law enforcement and with security 
officials in both countries? And can you comment on how it 
could be improved perhaps? 
    Mr. Migranyan. My opinion is that--but this is my guess--
when I called to Moscow yesterday to talk to some high-ranking 
people over there because CNN wanted me to comment about these 
contacts between security forces, they said, no, no, they are 
working now, they are cooperating, and we are not going to make 
any comments on this.
    But my personal guess is that this is the problem of 
distrust between our countries and our security forces. I am 
afraid that when Russian security and law enforcement agencies 
asked FBI to look at these guys, by inertia, you know, in this 
country and in the West still is the dominant idea that the 
Russian authorities are oppressing them; this is some Russian 
plot; this is not terrorism, it is something else. That is why 
I am afraid that they just didn't pay enough attention to these 
warnings on behalf of Russia. As a result of this--as I said in 
my preliminary statement, there is a kind of among Russian law 
enforcement authorities and especially the political circles--
and I know them very well, being in Presidential Council and 
working with all this administration--since 2001, there is a 
deep feeling of betrayal, you know, because Putin was the first 
to talk to Bush. Putin offered every opportunity which Russia 
had and very strongly cooperated in fighting against Taliban 
and al-Qaeda, and in response Russia--I remember the spirit 
showed the situation in Russia at that time. Everybody was 
thinking that at least we are finishing it and putting back 
this Cold War, all our distrust, and we are going to cooperate.
    Mr. Keating. I understand. One of the things we want to 
perhaps come of this is a better opportunity to have security 
advisors and law enforcement work more closely despite our 
differences, as difficult as they can be at times, because on 
both--in both countries lives could be lost in the homeland as 
well, particularly with groups like the Caucasus Emirates, they 
are terrorist groups.
    I had a quick question, though, for Dr. Freizer if I could, 
too. We are getting reports that--you know, there are posters 
coming up in the North Caucasus area and actual support or 
support for the terrorists that conducted the Boston Marathon 
bombings. I don't know what information you might have in those 
reports, but this is unusual that there is so much attention 
focused on the U.S., negative attention. Can you comment on 
what you might think, in your opinion, in your work with your 
group; is there a different viewpoint now toward the United 
States?
    Ms. Freizer. In our reporting so far, we have not really 
looked at the Russian-United States relationship as relates to 
the North Caucasus, so I can only answer this question 
partially.
    What I can say is that in its statement of last week, what 
the Caucasus Emirates clearly said is that they are not at war 
with the United States. So it is not the ambition of the North 
Caucasus insurgency and terrorist organization Caucasus 
Emirates to extend its war to the United States, or really to 
extend it beyond the region of the Caucasus, including perhaps 
Central Asia.
    I think that the posters that you are seeing today are, of 
course, very troubling, very disturbing to see that there are 
people in this region who are taking pleasure of what happened 
in Boston. Some of this might just be kind of local--local 
pride in terms of just family links, but, of course, this is 
highly unfortunate, and I don't think it really reflects on the 
feelings of the general population in the region.
    Mr. Keating. Thank you.
    Just in closing I do appreciate Mr. Goble's efforts to 
distinguish Muslim religious individuals from some of these 
extremist groups. It is an important thing to do.
    With that I will turn it back, Mr. Chairman. Thank you.
    Mr. Rohrabacher. And now Judge Poe, chairman of the 
Subcommittee on Terrorism and Nonproliferation.
    Mr. Poe. Thank you again for being here. I am a little 
irritated that the State Department is not here, this is an 
important topic. I am sure they don't have all the information 
yet, but they should at least show up. And it is ironic that 
the Russian Government helped us get a witness here to help us 
from that perspective. Mr. Goble, you may be the last person in 
the State Department that worked on this issue. Maybe that is 
why you are the only one here today.
    But I do have some concerns. I think we have learned that 
radical Islamic jihadists do not come from one area in the 
world. They come from all over the world, and some are 
homegrown. Chechnya is one of those areas that we need to focus 
on. And we need to work with the Russian Government on what has 
taken place there, because what takes place there obviously has 
been taking place here as well, with the influence and a red 
line from Dagestan to the United States as far as what criminal 
activity, terrorist activity is taking place in our own 
country.
    It is interesting that if Dagestan is a place where it is 
known it is a haven for jihadist philosophy, and it is growing, 
why we would not be concerned about someone that is in the 
United States going to that area for 6 months. I mean, what was 
he doing for 6 months? Who would this person--the older 
brother, let us call him--who could he have been meeting with 
to get influenced by al-Qaeda or from al-Qaeda jihadist 
movements? Enlighten me on that. I can tell, Mr. Goble, you 
want to start.
    Mr. Goble. Well, I just want to suggest that one of the 
insights that Americans have brought to the appearance of 
terrorism is that it often--it is often bred in failed states, 
where there are no political institutions to run things.
    It is worth noting that a week ago the new Acting President 
of Dagestan, Ramazan Abdulatipov, described his Republic as a 
failed state, as a state where political and legal institutions 
did not work and where he could not control the situation. This 
gives--this opens the door to the kinds of things we have seen 
elsewhere. failed states, states that cannot control their own 
population, that cannot operate as a state normally does, 
inevitably open spaces which are exploited by radicals of 
various kinds, and there are places, I am absolutely sure, in 
highland Dagestan where no outside official has ever been. It 
is that kind of a place, both topographically and 
demographically. So the possibility of someone going there for 
6 months and not being exposed to radicals in one way or 
another strikes me as slim to none, and that is why----
    Mr. Poe. It is not the place you would go fishing or take a 
fishing trip?
    Mr. Goble. Among other things, that is right. And it is 
also a place where you would expect that someone who went--that 
had the troubled biography this gentleman did would end up 
being an object of interest of not the right kind of people 
were he there. I am much more concerned about the 6 months in 
Dagestan than the fact that the man is an ethnic Chechen.
    Mr. Poe. Let me reclaim my time, because I don't have but 
1\1/2\ minutes.
    Would you think that maybe we ought to be concerned about 
that, especially if the Russian Government tells us two times 
that this is somebody that we ought to be concerned about, and 
all of a sudden he comes back to the United States; maybe a 
Customs official knew it, maybe he didn't. But wouldn't you 
think in the area of intelligence that ought to raise a red 
flag? This is not something that should have slipped under the 
rug, just snuck in.
    Dr. Albert, I will just let you just weigh in on that 
question.
    Mr. Albert. It definitely poses a concern if we didn't 
communicate properly that he was visiting the area to Dagestan.
    I want to address the original point also of who could this 
person have been meeting with in Dagestan that would pose a 
threat, and this is particularly the organization known Shariat 
Jamaat, which could be a subset----
    Mr. Poe. How large is that organization?
    Mr. Albert. It is not very large, but it is probably the 
most----
    Mr. Poe. How large? Give me some numbers.
    Mr. Albert. Maybe less than 1,000 individuals, but that is 
just reasonable conjecture. I don't have much evidence of that, 
but probably around 1,000 individuals. They are actively 
recruiting throughout the area as well. It could be larger 
because it is attached to the Caucasus Emirate, as well it is a 
confederation of alliances around there.
    Mr. Poe. I am sorry, Dr. Albert, I need to interrupt you 
for one last question.
    Is the influence of the radical jihadist movement, let us 
just use that phrase, in Dagestan on the increase, or is it 
decreasing? I know that it is something that the Russian 
Government is concerned about. Is it something we should be 
concerned about as well? Is it on the increase? That is my last 
question.
    Mr. Albert. Yes, it is on the increase in Dagestan, and it 
is something we should be concerned about.
    Mr. Poe. All right. I am out of time. Sorry, Doctor.
    Mr. Migranyan. Not a problem.
    Mr. Poe. I yield back.
    Mr. Rohrabacher. Let us just note that I don't believe that 
any Americans are concerned if a country decides to have 
leadership that is religious, and they decide to have groups of 
people. What we need to be concerned about is if it happens to 
be a religion that convinces people that part of their faith is 
to go off and murder other people's children. So if they were 
taking over that part of that country, and they were just 
people who wanted to exercise their religion and worship God as 
they see fit, nobody here would have any objection to that at 
all, or their independence and their right to vote, et cetera.
    Now Mr. Sherman.
    Mr. Sherman. Thank you. Perhaps they could reset the clock.
    Does anyone have a little quick history lesson for us as to 
the Chechen deportations? Dr. Albert, how many people were 
kicked out, et cetera?
    Mr. Albert. The entire population in 1944 was deported by 
Stalin. I think the numbers would be around 800,000. I believe 
a quarter of those died in transit, or they were deported to 
Central Asia. They were allowed to return--who occupied their 
homes earlier, I think, was a question. Russia resettled some 
people from the Russian mainland to their homes inside Chechnya 
at that time. Khrushchev eventually allowed the Chechens to 
come back. Some of them, for obvious reasons, chose to stay 
where they were. Many of them came back.
    There were issues and ethnic tensions within Chechnya with 
the people that had resettled in their homes, as you could 
imagine. This is known as a great trauma or great tragedy to 
the ethnic identity of Chechens that this event occurred. It is 
something very strong in their historical memory.
    Mr. Sherman. In 1944, there were Russians living in these 
homes in an area that had supported 800,000 people. Today in 
Chechnya how many of those Russians are still there?
    Mr. Migranyan. It is a good question. You know, after all 
these wars, there was huge propaganda comparing that the 
Russians are killing and massacring all the Chechens; now 
practically no Russians left in Chechnya. They terrorized all 
of them and kicked them out.
    Mr. Sherman. So there were tens or hundreds of thousands of 
Russians in Chechnya----
    Mr. Migranyan. 300,000 Russians lived in Chechnya.
    Mr. Sherman [continuing]. Cleansed by this.
    I want to join Mr. Rohrabacher in his call for better 
relations between the United States and Moscow, and point out 
that we granted refugee status to this family. That is 
something we would do only if we are claiming that they are 
oppressed by the Russian Government, and we see the outcome.
    Who can answer the question as to what level of--you know, 
what are the training bases for extremist Islam in the 
Dagestan, Chechnya area? Is there, like, a particular site 
where they have hundreds of people getting military training?
    Mr. Migranyan. Short answer is that in 1990s, they were 
training over there in Chechnya, in Ingushetia, in other places 
because the central government was very weak. Now they are 
limited because practically in Chechnya--Chechnya totally is 
under the control of Kadyrov, and this Sufi Islam is over there 
traditional, which means that are limiting.
    Russia's central government is trying to strengthen local 
presidents and local authorities, putting the security guys in 
Ingushetia, and now Ramazan Abdulatipov, whom I know very well. 
But this is a long-lasting process.
    Mr. Sherman. One thing the Russian Government told us to 
watch Tamerlan. He spent 6 months in the Russian Federation. 
How robust is the Russian intelligence and law enforcement 
system in the Dagestan town where the parents live? Would we 
expect the Russians to keep track of this individual during 
those 6 months, or is this an area where the writ of the 
government doesn't----
    Mr. Migranyan. The fact that almost 2 months ago that the 
President of Dagestan was changed proves that really this is a 
failed state. Institutions are very weak. Bribery is very high, 
and ethnic alliance are too, too many, because too many ethnic 
groups, it is very hard to get lost in that mountainous places 
where from village to village different languages and different 
ethnic groups are living.
    Mr. Sherman. Mr. Goble.
    Mr. Goble. There are within Dagestan 30 different mutually 
nonintelligible language groups. In an area of----
    Mr. Sherman. Just in Dagestan? Not the Caucasus.
    Mr. Goble. No, this is just in Dagestan. There are 30 
different nations speaking not mutually intelligible languages. 
Most Dagestanis are tri- or quadrilingual as a result, because 
it is the only way you can function. But what that means is 
that in many areas it is very, very difficult from someone from 
the center, be it Moscow or locally from Makhachkala, to 
penetrate those language communities, and so a lot goes on 
that, quite frankly, I think no one either in Makhachkala or 
Moscow knows.
    Mr. Rohrabacher. Mr. Meeks, you have time for a 1-minute 
statement on your part, and then we are going to be adjourning 
this hearing.
    Mr. Meeks. Thank you, Mr. Chairman.
    I was paying attention closely to the testimony in my 
office and trying to multitask, but I felt compelled to come.
    I had a question for Mr. Goble, because the issue is--I was 
listening to a lot--when you talk about the wipe open territory 
and the terrain that is not manageable reminded me somewhat of 
what was taking place in the Western Hemisphere in Colombia at 
a time, and where we tried to demil--bring some of those 
individuals back into society again, whether or not there was 
something that was being done, or, you know, my issue, in the 
middle, so that those who are being taken toward terrorists and 
terrorist actions, to bring them back into society so that they 
can reassimilate into culture.
    Mr. Goble, real quick.
    Mr. Goble. The single best predictor of when you get 
terrorism is the unemployment rate among 18-year-old males 
around the world. Everything else, that trumps everything.
    In parts of the North Caucasus, unemployment rates overall 
are ranging from 50 to 70 percent, and among young people they 
are, in many cases, 100 percent in terms of the officially 
recognized economy.
    What is the best thing that can be done, and the Russian 
Government is doing some of this, and it is also being helped 
by Azerbaijan, is trying to build factories to give people 
jobs. People who are employed and who are integrated into 
society in that way are far less likely to listen to any 
missionary from al-Qaeda.
    Mr. Rohrabacher. Thank you very much. I am sorry, we have 3 
minutes left, and it will be \1/2\ hour before--30 seconds.
    Ms. Freizer. Thank you. In the 30 seconds I just want to 
say that the mention of these committees in Colombia, in Russia 
they have started setting up similar committees for the 
rehabilitation of former fighters, and this is something that I 
would say would be an area where the U.S. Government and Russia 
would be able to share experiences.
    Mr. Rohrabacher. Okay. Thank you very much. We appreciate 
all of the witnesses.
    And let us just note at the end, during the Cold War, I was 
the Soviet Union's worst enemy and nemesis because I believe 
that free people need to determine who their number one enemies 
are and work to try to defeat them. That doesn't mean that the 
people you work with are perfect, et cetera. And we did bring 
down the Soviet Union. We worked with a lot of people who have 
had a lot of faults.
    Today radical Islam, radical Islam and China appear to be 
the main adversaries of people in the free world and the main 
threat to the free world. I hope we all work together against a 
religion that will motivate people to murder children and other 
threats to us and to civilization.
    This hearing is adjourned.
    [Whereupon, at 12:01 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 Material submitted for the record by Sabine Freizer, Ph.D., director, 
               Europe Program International Crisis Group


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



[Note: The above report is not reprinted here in its entirety but is 
available in committee records or may be accessed on the Internet at: 
http://www.crisisgroup.org/en/regions/europe/north-caucasus/220-the-
north-caucasus-the-challenges-of-integration-i-ethnicity-and-
conflict.aspx (accessed 6/5/13).]
                               __________


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               
[Note: The above report is not reprinted here in its entirety but is 
available in committee records or may be accessed on the Internet at: 
http://www.crisisgroup.org/en/regions/europe/north-caucasus/221-the-
north-caucasus-the-challenges-of-integration-ii-islam-the-insurgency-
and-counter-insurgency.aspx (accessed 6/5/13).]

       <F-dash>\<Copyright><pound><pound><loz><ellipse><ellipse>
                     <because><F-dash><Register>s\

    Question submitted for the record by the Honorable Paul Cook, a 
Representative in Congress from the State of California, and responses 
 from Andranik Migranyan, Ph.D., director, Institute for Democracy and 
   Cooperation, and Sabine Freizer, Ph.D., director, Europe Program 
                       International Crisis Group



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
